Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




MEDICARE PREPAYMENT REVIEW-


          FAIR HEARINGS 





                 Richard P. Kusserow
                INSPECTOR GENERAL

                     OEI-07-8941680
              EXECUTIVE                         SUMMARY


PURPOSE

The purpose of the inspection is to determine where improvements can be made in
the fair hearings process under the Medicare Part B program.

BACKGROUND

Private insurance companies, referred to as carriers, contract with the Health Care
Financing Administration (HCFA). Carriers process and pay claims under the
Medicare Part B program. The Part B program covers physicians’ services, outpatient
hospital care, and other medical costs. The patient, physician, practitioner, or supplier
may file a Medicare claim, with payment made either to the beneficiary or on his
behalf to the provider of the service. For disputed claims, a claimant under the
Medicare Part B program can request a fair hearing by the carrier if the amount in
controversy is $100 or more, or if payment is not made promptly.



We reviewed 210 fair hearings casesclosed in Fiscal Year (FY) 1989. We grouped
carriers by fair hearing reversal rates and the volume of claims processed during
three quarters of FY 1989. We then selected a sample of carriers from each group.
                                      .
FINDINGS            -          .’ *

b      Ihe $100 thrdwki for a fair hearing ir low compared to various injlation hdict3.

b	    ‘Ihe HCFA does not require caniim to adjust reported cost savingsdue to fair
      hearing reversalsof mdcal net@ &mid edits.

b     Some caniim may not be correctly reporting cost savingsdue to hearing reversals.

RECOMMENDATIONS

b	    The HCFA should seek l&i&ion to herease the $100 thrahoki amount for a fair
      hearing and the threshok& for subquent leveLrof appeoL

b	    l%e HCFA should require that car&m adjust for fair hearing revemaLrof medical
      nece   denial edit screens.

b	    The HCFA should assurethat car&m adjwt for fair hearing reversal of HCFA
      mandated and canier inihhted &it screens.


                                            i
We did not receive comments from HCFA on the draft of this report.

We received comments on the draft of this report from the Assistant Secretary for
Planning and Evaluation. They fully concurred with our recommendations. The
complete text of their comments are contained in Appendix D.




                                          ii
                        TABLE                  OF         CONTENTS

EXECUTIVE           SUMMARY..........................................                                               i

INTRODUCTION              ................................................. 1

FINDINGS         ...................................................... 4

RECOMMENDATIONS                    ............................................ 7

COMMENTS ON THE DRAFT REPORT                                .............................. 8

APPENDIX A - Consumer Price Index (CPI) and Fair Hearings
   Administrative Cost, 1973 TO 1990 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

APPENDIX B - Estimated Annual Budget Savings Based Upon
   Increased Fair Hearing Threshold Amounts . . . . . . . . . . . . . . . . . . . . . . . . . B-i

APPENDIX C - Estimated Total Amount of Fair Hearing
   Reversals of Medical Necessity Denial Edits Not Adjusted From
   The Quarterly Carrier Medical Review Reports, Fourth Quarter of
   Fiscal Year 1989 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l

APPENDIX D - Assistant Secretary for Planning and
   Evaluation’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-l
                         INTRODUCTION


PURPOSE

The purpose of the inspection is to determine where improvements can be made in
the fair hearings process under the Medicare Part B program.

BACKGROUND

The Medicare program provides hospital and medical care for beneficiaries under two
separate programs identified as Part A and Part B. The Part A program provides
coverage for hospital services. The Part B program covers physician services,
outpatient hospital services, and other medical services and supplies.

The Health Care Financing Administration (HCFA) administers Medicare. The
HCFA is responsible for developing program policy, setting standards, and assuring
compliance with Federal legislation and regulation. The HCFA contracts with private
insurers, referred to as carriers, to administer Medicare Part B benefits.

As part of their contract with HCFA, carriers process and pay Medicare Part B claims
for services. The carriers determine the reasonable charges for services provided and
assure that payments to physicians and suppliers are only for covered and medically
necessary-services. The HCFA monitors carriers’ performance through the annual
Contractor Performance Evaluation Program (CPEP).

The HCFA requires each carrier to set up and conduct fair hearings. A fair hearing is
an impartial review of a disputed claims decision by a carrier employee or
subcontractor. The procedure allows a beneficiary enrolled under Part B the
opportunity for a fair hearing if the claimed amount in controversy is $100 or more, or
if payment is not made promptly and the request is filed within six months of the
initial notice. One claim, or a combination of claims for the beneficiary totaling $100
or more, will meet this threshold requirement.

Physicians or suppliers under the Part B program may also request a fair hearing.
Decisions which can be appealed include: coverage of items and services, application
of the deductible, whether the charges for items and services are reasonable, the
medical necessity of services and supplies, and whether the beneficiary, physician, or
supplier knew or could reasonably have been expected to know that the items or
services were excluded from coverage. When the appeal for a fair hearing is by a
physician or supplier, the claims of more than one beneficiary may be combined to
meet the $100 threshold.

The carriers use three methods to conduct fair hearings. These are: on-the-record,
telephone, and in-person hearings. In 1988, HCFA revised the appeals process to

                                            1
provide for the expanded use of on-the-record fair hearings where the evidence in the
file is the basis for the decision. The beneficiary, physician, or supplier chooses the
method of the fair hearing. If dissatisfied with the fair hearing decision, they may also
appeal by:

b	     requesting a hearing by an Administrative Law Judge (ALJ) of the Social
       Security Administration within 60 days following a carrier’s fair hearing decision
       which involve denied amounts of $500 or more;

b	     requesting a Departmental Appeals Council review if dissatisfied with an ALJ
       decision or dismissal; and,

b	     bringing a civil suit in U. S. District Court of an appeals council decision which
       involves a denied amount of $1000 or more.

For the Fiscal Year (FY) 1989 review period (October 1, 1988, to September 30,
1989), Medicare carriers’ workload was as follows:

                     Percentage (%) of Claims Hearing           Hearing
Claims Volume          Denied or Reduced      Decisions         Reversals (%I

410,700,ooo                  17.5 %                47,881       26,726 (55.8 %)

There were 66,802 fair hearing casescleared in FY 1989 as a result of either a hearing
decision, hearing dismissal, or hearing withdrawal.
                                      m
METHODOXDGY-                     *.

We randomly selected a sample of eight carriers from all carriers. We used data
available from two overlapping periods for the sample selection. The method used to
select the sample was a two-stage stratified cluster sample. The carriers were divided
into a.matrix of four categories based on the reversal rate of fair hearings and the
volume of claims processed for payment during the period October 1988 to June 1989.
The reversal rate of fair hearings is the percentage of reversals in relation to the totals
for the period October 1988 through July 1989.

We grouped the carriers either above or below the respective median value of the
carriers’ volume of claims and reversal rates. The resulting four categories of carriers
were as follows:

b      High volume of claims and high reversal rate
b      High volume of claims and low reversal rate
b      Low volume of claims and high reversal rate
b      Low volume of claims and low reversal rate




                                            2

We selected two carriers meeting the criteria within each of the four categories. The
carrier’s selection was directly proportional to the volume of claims processed.

We dropped one of the eight carriers from our review when we became aware of a
civil suit brought by the Federal government. The civil suit alleged the carrier
improperly administered the Medicare program.

We randomly selected thirty fair hearing casesclosed during the FY 1989 period from
each of the sample carriers. After selection, we reviewed the casesfor the appeal
issues, the amount in controversy, and the decision. In addition, for reversals, we
determined if there was an audit trail to the carrier savings report. We also held
discussions with personnel at each of the seven carriers who were responsible for
operation of Medicare Part B fair hearings. We questioned staff about the fair
hearings process, cost of conducting fair hearings, program weaknesses, and
recommendations for improvements.




                                           3

                                            FINDINGS 



IXE $100 THRESHOLD FOR A FAIR HEARING IS LOW COMPARED TO
VARIOUS LiWLAT7ON lNDKES.

The U.S. Congress amended the review and hearing procedures under the Part B
Medicare program, Section 1842(b)(3)(C) of the Social Security Act. This section of
the law became effective in FY 1973. The section imposes a threshold of $100 or
more before an individual qualifies for a fair hearing under the Medicare Part B
program. This threshold was established to avoid administrative burdens for Medicare
claims hearings involving small amounts.

The threshold amount of $100 has not changed in the past eighteen years. During the
same period, however, there have been substantial increases in several related
measures such as medical and general costs and the administrative costs associated
with the fair hearing (APPENDIX A). Because the threshold is proportionately small
as compared to these other costs, it is no longer achieving its purpose of precluding
hearings for negligible dollar value claims.

The effect has been a skyrocketing fair hearings workload. As reported by HCFA, the
number of fair hearings has increased substantially since passage of the law. The
following chart on Carrier Fair Hearings shows a progressive increase in the number
of fair hearings from 9,384 recorded in FY 1973 to 101,246 in FY 1990.
                                    .m
                        CARRIEK’                  FAIR            HEARINGS
                                  APPEALS                  CLEARED




       7s   74   7s   “rn   ‘77   7a   7a   ‘00    ‘o-     ‘SO    ‘W    ‘#4    ‘DS   ‘W   ‘07   ‘00   ‘08   ‘SO

                            FISCAL     YEARS       CF’fJ         19?3     TO     1990
We estimate that 26.2 percent of the fair hearing casesin FY 1989 involved claimed
amounts in controversy that were less than the average fair hearing administrative cost
of $224 for the seven carriers sampled. This is more than 17,500 of the 66,802 fair
hearing cases cleared in FY 1989.

The increase in workload correlates with an increase in administrative expenditures to
process fair hearing requests. For example, the HCFA budget for carrier fair
hearings in FY 1990 was more than $16 million. This is up from the previous years of
FY 1989, FY 1988, and FY 1987 when the budgets were more than $14 million,
$11 million, and $8 million, respectively (APPENDIX A).

The administrative cost of $224 to process a fair hearing is more than twice the
current threshold. The Medical Consumer Price Index (MCPI) and the Consumer
Price Index (CPI) are 4.2 and 2.9 times greater than they were in 1973, respectively.
Applying these ratio’s to the $100 fair hearing threshold would support an increase to:
(1) $400, an amount that corresponds to the MCPI; (2) $300, an amount that
corresponds to the CPI; or (3) $225, the amount that corresponds approximately to
the administrative cost of a fair hearing.

We estimate from the number of FY 1989 fair hearings at the sample carriers that
HCFA could have achieved administrative budget savings ranging from almost
$4 million dollars to over $6 million dollars by raising the threshold of $100 by the
following amounts (APPENDIX B):

          Proposed                         Fair Hearing Budget
       Threshold Amount                    Estimated Annual Savines

              $400                                 $6,269,675
              $300                                 $5,671,989
              $225                                 $3,995,987

THE HCFA DOES NOT REQUIRE CARRlERS TO ADJUST REPORlED COST
SAWNGS DUE TO FAIR HEdRING REVERSALS OF MEDKXL NECESSlTY
DENM WITS.

Carrier prepayment claim edits are designed to ensure that Medicare pays only for
medically necessary services. These consist of Category I and Category II screens.
Category I screens are medical necessity denials, and Category II screens are HCFA
mandated and carrier initiated computer edits. The carriers submit reports to HCFA
on savings achieved using these screens. When a carrier denies a claim for lack of
medical necessity, it is claimed as a savings. For example, a denial of payment for a
seat lift chair is a claimed savings in the period it is denied. Savings identified through
the use of prepayment screens are used by HCFA to evaluate contractors. Carriers
must meet, or exceed, a five dollar savings to a one dollar cost from prepayment and
postpayment review to receive a satisfactory CPEP evaluation by HCFA.



                                             5

We identified fair hearing reversals totalling $18,876 which involve screen denials in
Category I. While the Medicare Part B Carriers Manual (MCM), Part 3, Section
7536.2, requires an adjustment for fair hearing reversals of Category II screen denials,
HCF’A does not require carriers to make subsequent adjustments for fair hearing
reversals of Category I screen denials. Based on this amount, we project reversals
totalling almost $4.4 million that would have reduced claimed savings in the fourth
quarter of FY 1989 (APPENDIX C). Assuming equal amounts for the remaining
3 quarters of the year, this projects to $17.5 million for the year.

SOME G4R.RlER.S hUY NOT BE CORRECZZY REPOR7TNG COST SAVINGS DUE
TO H-G      REWRSALS.

The MCM requires an adjustment for Category II reversals. All carriers reviewed,
except one, had a process to reduce carrier savings by subtracting from it the
monetary value of the fair hearing reversals of Category II prepayment screens. The
medical review section of that carrier did not consider it their responsibility to adjust
Category II savings for fair hearing reversal decisions after completion of the review.
The manager stated that the carrier’s manual instruction was “vague” concerning
adjustment of fair hearing reversals from Category II savings. The potential exists,
since one of seven carriers did not adjust savings as a result of fair hearing reversals,
that other carriers may not correctly reduce savings as a result of fair hearing
reversals.
                   RECOMMENDATIONS


7HE HCFA SHOULD SEEK LEGISLAlTON To INCREASE THE $100
lHRE!JHOLD AMOUNT FOR A Fm HEARlNG AND THE llXUESHOLDS FOR
SUBSEQUENTLEWLS   OFAPPEALa

The HCFA should pursue a legislative initiative to raise the fair hearing threshold.
Alternatives to the current threshold include the following suggestions.

b	     Increase the threshold amount to $225 which is approximately equal to the
       administrative cost to conduct a fair hearing at the seven carriers sampled.
       Projected savings would be $3995,987 (APPENDIX B). The threshold should
       be indexed to the administrative cost of a fair hearing. This would achieve
       greater savings in future years.

b	     Increase the threshold amount to $300 which approximately reflects the
       increase in the CPI since 1973. Projected savingswould be $5,671,989
       (APPENDIX B). The threshold should be indexed to the CPI in future years.

b	     Increase the threshold amount to $400 which approximately reflects the
       increase in the MCPI since 1973. Projected savings would be $6,269,675
       (APPENDIX B). The threshold should be indexed to the MCPI in future
       years.

b	     Increase the Part B thresholds for requesting an ALJ hearing and other levels
       of appeal proportionally.

THE HCFA SHOULD REQUIRE Tli%T CLIRRIERSADJUST FOR F&R HEARllvG
R.EK?XW!S OF MEDICAL NECESSITY DENLLiL EDIT SCREENS.

The HCFA’s instructions to carriers should require adjustment of reported medical
necessity denial edits in the quarterly period when the fair hearing reversals occur.
There were approximately $17.5 million in savings that should have been adjusted
from the claimed savings in FY 1989 due to fair hearing reversal decisions.

Z-HE HCFA SHOULD ASSURE TK4T CARRIERS ADJUST FOR FAIR HEARING
REWRSALS OF HCFA MANDATED AND CARRIER INmTED      EDIT SCREENS.

The HCFA should assure that all carriers adjust affected savings after a fair hearing
reversal. This adjustment should be made in the quarterly period when the fair
hearing reversal occurs. The HCFA should also review the clarity of the MCM
section that pertains to the handling of these savings.



                                            7

           COMMENTS              ON THE DRAFT                REPORT


We did not receive comments from HCFA on the draft of this report.

We received comments on the draft of this report from the Assistant Secretary for
Plating and Evaluation. They fully concurred with our recommendations. The
complete text of their comments are contained in Appendix D.




                                          8

                               APPENDIX                    A



                           CONSUMER PRICE INDEX (CPI) and
                        FAIR HEARINGS ADMINISTRATIVE  COST
                                     1973 TO 1990

                                                     Carrier Fair Hearings 

                               Medical               Administrative Cost(2) 

Year       CPI(1)              CPI(1)                (in millions\ 


1973          44.4              38.8                 Not Available (NA) 

1974          49.3              42.4                 NA 

1975          53.8              47.5                 NA 

1976          56.9              52.0                 NA 

1977          60.6              57.0                 NA 

1978          65.2              61.8                 NA 

1979          72.6              67.5                 NA 

1980          82.4              74.9                 NA 

1981          90.9              82.9                 NA 

1982          96.5              92.5                 NA 

1983          99.6             100.6                 NA 

1984         103.9             106.9                 NA 

1985       - 107.6             113.5                 NA 

1986
1987           109.6
               113.6           130.1
                               122.1                 K3 

1988           118.3           138.6                 $11.8 

1989           124.0           149.3                 $14.3 

1990           130.7*          162.8**               $16.4 


* The 1990 CPI is over 2.9 times greater than the 1973 Index.
** The 1990 MCPI is almost 4.2 times greater than the 1973 Index.

SOURCES:

       (1) 	     The CPI is from the Office of Management and Budget Consumer Price
                 Index Table B-58 CPI. Maior Expenditure Classes.
                 The 1988, 1989 and 1990 CPI and the Medical CPI are from the
                 Economic Renort of the President, Februarv 1991.

       (2) 	     Carrier Fair Hearings Administrative Costs for 1987, 1988, 1989, and
                 1990 represent costs (HCFA Fair Hearings Cost Data from Carriers’
                 Final Administrative Cost Pronosal).




                                            A -1 

                            APPENDIX                  B


                   ESTIMATED
                           ANNUAL BUDGET SAVINGS 

                            BASED UPON 

            INCREASED FAIR HEARING THRESHOLD AMOUNTS 


Proposed
Threshold    95 Percent Confidence Interval          Estimated
 Amount      Lower Estimate - UDDer Estimate        Budget Savings

$400         $4,49&013               $8,041,337     $6,269,675

$300         $3,756,611              $7,587,367     $5,671,989

$225         $3,387,682              $4,604,292     $3,995,987


The budget savings calculations are based on the varying thresholds within each strata
utilized in drawing the sample of carriers. We estimated the amount of savings within
the sample based on the average cost per request and the number of casesbelow the
threshold. We projected these estimated -savingswithin each strata, and summed the
amounts to obtain the total for each threshold.

                                      .
                                +.




                                           B-l
                                APPENDIX                   C


                            ESTIMATED TOTAL AMOUNT
                            OF FAIR HEARING REVERSALS
                        OF MEDICAL NECESSITY DENIAL EDDX
                        NOT ADJUSTED FROM THE QUARTERLY
                         CARRIER MEDICAL REVIEW REPORTS

                       FOURTH QUARTER OF FISCAL YEAR 1989

                   Sample                                Estimated
Strata (1)         Savinfzs            Weight (2)        Total Amount

I                  $4,758.30           .487              $1,993,141.63
II                 $1,850.90           .351              $1,870,323.02
III                $9,395.60           .083              $ 338,053.76
Iv                 $2,872.00           .079              $ 181,422.12

Totals            $18,876.80                             $4,382,940.53

At the 95 percent confidence level, this estimate may vary by as much as $1.1 million.
Therefore, the estimated fair hearing reversals of medical necessity denial edits range
from $3.3 - $5.5 million.

(1) 	    Strata   I Carriers with high volume of claims and high reversal rate
         Strata   II Carrier with high volume of claims and low reversal rate
         Strata   III Carriers with low volume of claims and high reversal rate
         Strata   IV Carriers with low volume of claims and low reversal rate

(2)      This represents the proportion of claims processed by the various strata.




                                              C-l
 APPENDIX           D


ASSISTANT SECRETARY FOR
PLANNING AND EVALUATION

       COMMENTS




          D-l
    DEPARTMENT   OF HEALTH & HUMAN    SERVIbS    iiF,CEitrED             Office of the Secretary
                                            Gff!CE     Of iyiT3zC: [SF
                                                     - -. .-.s .
                                                                         Washington,DC.      20201




TO: 	      Richard P. KusserOW
           Inspector General
           Office of Inspector General
FROM: 	    Assistant    Secretary   for
           Planning    and Evaluation
SUBJECT: 	 OIG Draft    Report:    "Medicare Prepayment Review - Fair
           Hearings"    (OEI-07-89-01680)--CONCURRENCE

I concur with the draft Office of Inspector      General (OIG) report
entitled   "Medicare Prepayment Review - Fair Hearings" which
recommends that the Health Care Financing Administration       (HCFA)
seek legislation    to increase the $100 threshold   amount for fair
hearings and subsequent levels of appeal.
I also concur with the report's   recommendation that HCFA require
carriers  to adjust claimed savings for fair hearing reversals      of
medical necessity   denial edits and assure that carriers adjust
for fair hearing reversals   of HCFA mandated and carrier initiated
edit screens.
If you have any questions,      please    contact       Elise     D. Smith at
245-1870.
